Nos. 19-465, 19-518
IN THE

Supreme Court of the United States
_________
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
________
COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.
________
On Writs of Certiorari to the Supreme Court
of Washington and the United States Court
of Appeals for the Tenth Circuit
________
BRIEF OF PROFESSOR EDWARD B. FOLEY AS
AMICUS CURIAE IN SUPPORT OF NEITHER PARTY
________
JESSICA RING AMUNSON
Counsel of Record
ZACHARY C. SCHAUF
NOAH B. BOKAT-LINDELL
ADRIENNE LEE BENSON
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6023
jamunson@jenner.com

i
TABLE OF CONTENTS

INTERESTS OF AMICUS .............................................. 1
SUMMARY OF ARGUMENT ......................................... 1
ARGUMENT ....................................................................... 5
I.

II.

THE ELECTORAL COLLEGE
WAS A COMPROMISE TO
WHICH
ELECTOR
INDEPENDENCE
WAS
CRUCIAL .................................................... 5
A.

The Convention Debates
Reveal
That
Elector
Autonomy Was Key to the
Electoral
College
Compromise...................................... 6

B.

The Ratification Debates
Highlighted
Elector
Autonomy to Sell the
Electoral College ........................... 10

ELECTORS
EXHIBITED
AUTONOMY IN THE EARLY
REPUBLIC ............................................... 14
A.

Originalist Electors Voted
Without Party Pressure ............... 15

B.

Autonomous
Electors
Scattered Vice-Presidential
Votes
to
Help
Their
Presidential Nominees.................. 16

C.
III.

ii
Faithless Electors Emerged
by 1796............................................. 19

THE TWELFTH AMENDMENT
DID NOT AFFECT ELECTORS’
AUTONOMY ............................................. 21
A.

Vote-Scattering Failure and
the Prospect of Minority
Rule Spurred the Twelfth
Amendment .................................... 21

B.

The Twelfth Amendment
Congress
Recognized
Elector
Autonomy
But
Sought
Only
Ballot
Designation..................................... 23

C.

i. The House Debate ................... 24
ii. The Senate Debate .................. 26
iii. Debate Returns to the
House......................................... 28
The Twelfth Amendment’s
Text Does Not Authorize
Interference with Elector
Autonomy ....................................... 31

CONCLUSION ................................................................. 33

iii
TABLE OF AUTHORITIES
CASES
Franchise Tax Board of California v. Hyatt,
139 S. Ct. 1485 (2019).........................................32-33
Ray v. Blair, 343 U.S. 214 (1952)................................ 19
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XII ............................................... 32
OTHER AUTHORITIES
Robert M. Alexander, Representation and the
Electoral College (2019) ......................................... 17
Akhil Amar, America’s Constitution: A
Biography (2005)......................................... 17, 18, 31
13 Annals of Cong. (1803) ........ 24, 25, 26, 27, 28, 29, 30
The Debates, Resolutions, and Other
Proceedings in Convention (Jonathan
Elliott ed., 1830) ...................................................... 14
The Federalist No. 45 (James Madison)
(Clinton Rossiter ed., 2003) ................................... 12
The Federalist No. 68 (Alexander Hamilton)
(Clinton Rossiter ed., 2003) ............................. 12, 13
Edward B. Foley, Ballot Battles (2016) .................... 32
Edward B. Foley, Presidential Elections and
Majority Rule (2020) ............ 1, 16, 21, 22, 23, 25, 29
Alexander Hamilton: Writings (Joanne B.
Freeman ed., 2001) ................................................. 17

iv
Joshua D. Hawley, The Transformative
Twelfth Amendment, 55 Wm. & Mary L.
Rev. 1501 (2014) .......................................... 25, 26, 31
Journal Notes of the Virginia Ratification
Convention Proceedings (June 18, 1788),
https://www.consource.org/document/jour
nal-notes-of-the-virginia-ratification-con
vention-proceedings-1788-6-18 ........................11-12
Tadhisa Kuroda, The Origins of the Twelfth
Amendment: The Electoral College in the
Early Republic, 1787-1804 (1994) ............... passim
Edward
J.
Larson,
A
Magnificent
Catastrophe: The Tumultuous Election of
1800, America’s First Presidential
Campaign (2007)......................................... 18, 21, 22
Richard Henry Lee, Letter III of a Federal
Farmer (Oct. 10, 1787), reprinted in
Pamphlets on the Constitution of the
United States (Paul L. Ford ed., 1888) ................ 11
Letter from Thomas Jefferson to Albert
Gallatin (Sept. 18, 1801), https://founders.ar
chives.gov/documents/Jefferson/01-35-02-0
245 ............................................................................. 23
Jeffrey L. Pasley, The First Presidential
Contest: 1796 and the Founding of
American Democracy (2016) .......................... 19, 20
Neal R. Peirce & Lawrence D. Longley, The
People’s President: The Electoral College
in American History and the Direct Vote
Alternative (2d ed. 1981)........................ 6, 7, 8, 9, 20

v
The Records of the Federal Convention of 1787
(Max Farrand ed., 1966)........................... 7, 8, 10, 11
David J. Siemers, The Antifederalist: Men of
Great Faith and Forbearance (2003) ................... 11
Tufts University, 1796 President of the United
States, Electoral College, in A New Nation
Votes: American Election Returns 17871825 (2012), http://elections.lib.tufts.edu/
catalog/tufts:us.potus.1796 .................................... 20

1
INTERESTS OF AMICUS 1
Amicus curiae Edward B. Foley is the Charles
W. Ebersold and Florence Whitcomb Ebersold Chair in
Constitutional Law and director of the election law
program at The Ohio State University Moritz College of
Law. He is the author of Presidential Elections and
Majority Rule (2020), which excavates the longforgotten philosophical premises underlying the postTwelfth Amendment Electoral College. Amicus wishes
to provide the Court an accurate history of the Electoral
College and the Twelfth Amendment, with particular
attention to faithless electors.
SUMMARY OF ARGUMENT
The questions in these cases are whether the
Constitution confers on presidential electors a right to
cast independent votes, and whether states may punish
electors for casting such votes. The answers to those
questions depend on the original understanding of
Article II, Section 1 and its 1803 revision in the Twelfth
Amendment. To aid the Court’s inquiry, this brief
outlines the drafting and ratification of Article II’s
Electoral College compromise; its early operation; and
the Twelfth Amendment’s adoption.
This history shows the Framers expected electors to
exercise independent judgment and to be free of state
legislatures’ direct control after appointment. It also
shows that electors did exercise independent judgment
in the early republic—even as most electors quickly
1

All parties consented to this filing. No party or party’s counsel
wholly or partially authored this brief. Only amicus and amicus’s
counsel funded its preparation and submission.

2
became faithful to their parties. Partisan competition
affected electors’ behavior in 1796, and more so in 1800.
In this new environment, the Twelfth Amendment
Congress envisioned two-party competition as the “new
normal” and altered the Electoral College’s structure to
safeguard majority rule. The Twelfth Amendment’s
transformation, however, did not alter electors’
authority under Article II to exercise independent
judgment.
I. Independent, deliberative electors were critical to
the Electoral College compromise that ended the 1787
Convention’s deadlock on presidential selection. Some
who wanted a strong and independent executive favored
direct nationwide election by the people. Others
believed Congress should select the President. The
majority, however, rejected both approaches. Most
delegates opposed direct nationwide election but also
deemed it too dangerous to leave the choice of President
to sitting congressmen. After multiple votes, the
Convention settled on the Electoral College precisely
because of its independence. Delegates viewed electors
as deliberative enough to choose a President of good
character, and independent enough to be unmoved by
political factions and state interests. Electors’
independence was therefore crucial to the compromise.
The ratification debates confirm this point. During
ratification, the Electoral College’s few critics fretted
that electors might not be independent enough of state
legislatures—because legislatures could select electors.
The Framers’ rebuttal was that, because electors held
only a temporary appointment for a specific purpose,
they would exercise independent judgment. The

3
Framers contrasted the Electoral College with direct
choice by legislatures, which the Framers viewed as
opening the selection to intrigue and threatening the
separation of powers. Hence, at the ratification stage as
well, electors’ independence was critical.
II. Founding-era history confirms that electors acted
as free agents, as the Framers envisioned. In the
Constitution’s first decade, independent electors can be
categorized into three types. First came originalist
electors who, lacking party pressure, simply voted their
personal preferences. Then, as party structures
emerged by the end of President Washington’s second
term, some electors exercised autonomy by votescattering. Article II originally required electors to vote
indiscriminately for two candidates, without designating
a President or Vice President. A party thus faced two
undesirable possibilities. Its two candidates could tie if
no elector threw away his second vote. But if too many
electors did so, the “losing” party’s top candidate could
receive the second-most electoral votes and become Vice
President. Vote-scatterers attempted to avoid those
outcomes, while navigating their party’s ticket to
victory, by strategically voting against the VicePresidential candidate to whom they were pledged.
By 1796, a third group emerged: faithless electors. At
the time, electors were expected to, and did, pledge
support to the party ticket. Still, two Federalist electors
pledged to John Adams and Thomas Pinckney cast votes
for Thomas Jefferson. The early history therefore
highlights that electors were independent actors. Even
after two-party competition emerged, the constitutional
system left electors unbound by party loyalty. Although

4
they were appointed on the assumption that they would
be loyal partisans, electors remained capable—at the
crucial moment—of repudiating their parties.
III. The spur for the Twelfth Amendment was the
Electoral College tie in the 1800 election, and the fear
that losing Federalists in 1804 might strategically vault
the majority’s Vice-Presidential candidate over
Jefferson to become President. The potential for such
strategic behavior arose precisely because the Founding
generation understood that electors could not be bound
in their votes for President. But when Congress
confronted this problem through the Twelfth
Amendment, the solution it chose was not to eliminate
electors’ independence. Instead, it was to differentiate
the ballots for President and Vice President. Indeed,
lawmakers—though confident that electors would
usually vote the party line (and eager to enable them to
do so)—expressly recognized that electors could
continue to vote independently, even in defiance of their
public pledges. Congress’s fix therefore left untouched
the independence that Article II protected.
It was no accident that the Twelfth Amendment did
not go farther. Its specificity was a political necessity.
While Republicans had supermajorities in both houses of
Congress, the amendment passed with not one vote to
spare. Many indicated that they would not vote for any
innovation beyond separate designation of ballots, and
Republicans had to rush the amendment through
Congress to give states time to ratify it before the 1804
election. It was therefore essential to the Twelfth
Amendment’s passage that Congress did not further
depart from Article II, including its assurance of

5
independent electors. Because no subsequent
amendment has altered that independence, it remains
intact today.
ARGUMENT
I.

THE ELECTORAL COLLEGE WAS A
COMPROMISE TO WHICH ELECTOR
INDEPENDENCE WAS CRUCIAL

When the delegates to the Constitutional Convention
met in the summer of 1787, it was clear that the lack of
an effective executive was a fundamental failure of the
Articles of Confederation. But as with the debates over
Congress’s composition, the federal executive’s selection
implicated the Convention’s deepest fissures: between
those who wanted an independent President and those
who wanted a dominant Congress; between those who
wanted direct election of the President and those who
feared
unbridled
majoritarianism;
between
representatives of states large and small; and between
representatives of states slave and free.
The delegates’ challenge was therefore to address
the Articles of Confederation’s weaknesses by creating
an effective and independent executive, while guarding
against the risk that this powerful office could be
captured by private or legislative interests, or undone
by the perceived instability of popular rule in a large
republic. The delegates also had to build a majority
among states with vastly different populations and
economic interests. The Electoral College emerged as
the compromise. And its very premise was electors’
independence—the understanding that electors, chosen
for the specific task of selecting a President, would

6
engage in deliberative and independent decisionmaking, beholden neither to the chaotic pressures of
populism nor to the machinations of legislative bodies
(state or federal). This compromise balanced the
Framers’ many concerns and enabled the Constitution
to proceed to ratification.
A. The Convention Debates Reveal That Elector
Autonomy Was Key to the Electoral College
Compromise
At the Constitutional Convention, history offered the
Framers few models of an effective, democratically
selected executive governing a vast and diverse
territory. The examples they did have fell into two main
categories: In 1787, eight out of thirteen state executives
were chosen by state legislatures; other states, including
the powerful states of New York and Massachusetts,
elected governors by statewide popular vote. Neil R.
Peirce & Lawrence D. Longley, The People’s President:
The Electoral College and the Direct Vote Alternative
19-21 (2d ed. 1981).
The Convention seriously considered only three
models of presidential selection: “election by Congress
… election by a direct vote of the people throughout the
nation, and election by intermediate electors,” id. at 19,
the third being a compromise between the first two.
Selection by Congress, favored by those who preferred
a strong legislature and feared the risk of monarchical
tyranny, was the early frontrunner. This proposal nearly
succeeded: it “was specifically approved by votes of the
convention on four occasions.” Id.

7
But this approach was unacceptable to those who
favored a system of separated powers, with a strong and
independent executive—including such influential
delegates as James Wilson, Gouvernour Morris, and
James Madison. They favored direct election. As
Madison explained, “a dependence of the executive on
the legislature would render it the executor as well as
the maker of the laws; and then, according to the
observation of Montesquieu, tyrannical laws may be
made that they may be executive in a tyrannical
manner.’” 2 The Records of the Federal Convention of
1787, at 500 (Max Farrand ed., 1966); see also id. at 5253 (Morris arguing that “the executive magistrate
should be the guardian of the people, even of the lower
classes, against legislative tyranny…. If he is to be the
guardian of the people, let him be appointed by the
people.”); id. at 68-69 (Wilson arguing that the examples
of a directly elected governor in New York and
Massachusetts showed it “was both a convenient and
successful mode”). Supporters of direct election argued
that it was more likely that, if Congress elected the
President, legislators would form a cabal to control the
Presidency. Peirce & Longley 22. They also worried
about state loyalties: If the President were selected by
Senators selected by state legislatures, and
Representatives with state loyalties, the President
might act in state legislatures’ interests. As Madison
argued, “the President is to act for the people not the
states.” 2 Farrand 403.
But there was little appetite among the delegates for
direct election. Opponents argued that the people were
uninformed and would be “led by a few designing men”;
George Mason of Virginia likened “refer[ring] the choice

8
of a proper magistrate to the people” to “refer[ring] a
trial of colors to a blind man.” Id. at 30-31.
Representatives of smaller states, such as Roger
Sherman of Connecticut, worried that direct election
would favor the most populous states. Because people
would “generally vote for some man in their own state,”
Sherman argued, “the largest states will have the best
chance for appointment.” Id. at 29; see also id. at 30
(Charles Pinckney of South Carolina arguing that the
“most populous states by combining in favor of the same
individual will be able to carry their points”). Even
proponents of direct election knew well that, at the time,
“[i]t ha[d] been a maxim in political science that
Republican Government is not adapted to a large extent
of Country.” Id. at 52 (statement of Gouverneur Morris,
July 19, 1787). Thus, both times it came to a vote, the
proposal for direct election was overwhelmingly
defeated, “by a 1 to 9 vote on July 17 … and by a 2 to 9
vote on August 24.” Peirce & Longley 22.
The arguments for direct election by the people did,
however, effectively blunt support for direct election by
Congress. And when the Convention discarded direct
election, it focused attention on creating a palatable
alternative—a deliberative mechanism that would
sufficiently distance the President from existing political
factions and legislators, while ensuring election of an
individual of good character.
The compromise option of elector intermediaries was
“first advanced on June 2 by Wilson.” Id. Although the
proposal initially failed, more delegates became
convinced of the plan as debate progressed through June
and July. Injecting independent electors addressed

9
concerns that Congress or political cabals would have
too much control. Allowing for a deliberative choice by
individuals specially picked for the task would also
mitigate the perceived dangers of populist democracy.
Meanwhile, given the ever-present struggle between
large and small states, electors allowed the Convention
to carry over the Connecticut Compromise into
Presidential selection—by allocating electors according
to congressional representation. In addition, the
proposal “possessed the virtue of being the second
choice of many delegates, though it was the first choice
of few, if any, when the convention began.” Id.
Thus, when the Convention became deadlocked in
August, the Committee of Eleven appointed to break the
impasse settled on the Electoral College. In this
compromise, “[t]he big states got an element of
population-based apportionment in choosing the
electors,” while “the small states got equal voting rights
in the contingent election plan when a majority of the
electors failed to agree”; “the feelings of states’-rights
advocates were acknowledged by giving the state
legislatures the right to decide how the electors should
be chosen,” while “those who wanted to entrust the
choice of the president to the people could see at least
the potential for popular vote.” Id. at 23.
Key to all this was that the electors would have a
meaningful deliberative function; otherwise, the
“compromise” would have been meaningless on nearly
every issue. For instance, towards the end of the
Convention, Charles Pinckney “renewed his opposition
to the mode [of electing the President], arguing that the
electors will not have sufficient knowledge of the fittest

10
men, & will be swayed by an attachment to the eminent
men of their respective States.” 2 Farrand 511. Indeed,
delegates were consistently concerned that the electors
should be among the fittest Americans so that they
would exercise good, independent judgment in selecting
the President. In response to a proposal that the
President be selected by members of Congress chosen
by lot for that responsibility, Elbridge Gerry argued
that “this is committing too much to chance. If the lot
should fall on a set of unworthy men, an unworthy
Executive must be saddled on the Country.” Id. at 105.
Further, the Electoral College compromise required
that each elector’s two votes be cast for candidates from
different states, on the assumption that the first vote
would be for a state’s “native son” and the second would
be for someone judged to reflect the overall national
interest. The delegates thus intended that future
electors would use their independent judgment to
identify the most Washington-like figure possible.
By the end of the Convention, then, delegates
reached consensus about the intended virtue of the
electors—that they could exercise their individual
judgment, independent from the people of their states
and the legislatures that appointed them. The only
question was whether, in practice, electors would fulfill
this vision.
B. The Ratification Debates Highlighted Elector
Autonomy to Sell the Electoral College
Presidential selection proved far less contentious
during the ratification debates in state legislatures. In
the Pennsylvania debates, James Wilson—originally a
strong proponent of direct election—noted that “[t]he

11
manner of appointing the President of the United States,
I find, is not objected to.” 3 Farrand 166. Indeed, the only
comment of leading Anti-Federalist Federal Farmer
regarding the Presidential selection method was that
“[t]he election of this officer [the Vice President], as well
as the president of the United States seems to be
properly secured.” Richard Henry Lee, Letter III of a
Federal Farmer (Oct. 10, 1787), reprinted in Pamphlets
on the Constitution of the United States 298 (Paul L.
Ford ed., 1888).
The method’s few opponents objected to the fact that
the Constitution did not entrust the election of the
President to the people directly, instead providing an
intervening Electoral College whose deliberations were
expected often to result in a final decision by Congress.
As Republicus wrote in Anti-Federalist No. 72: “Is it
then become necessary, that a free people should first
resign their right of suffrage into other hands besides
their own,” such that “the sacred rights of mankind
should thus dwindle down to Electors of electors, and
those again electors of other electors? This seems to be
degrading [the people] even below … ‘servant of
servants.’” David J. Siemers, The Antifederalist: Men of
Great Faith and Forbearance 171-72 (2003).
Others were concerned that the Constitution’s
failure to provide for direct election would make the
executive beholden to state legislatures rather than to
the people. One ratification opponent, future President
James Monroe, told the Virginia convention: “I believe
that [the President] will owe his election, in fact, to the
state governments, and not the people at large.” Journal
Notes of the Virginia Ratification Convention

12
Proceedings (June 18, 1788), https://www.consource.org/
document/journal-notes-of-the-virginia-ratification-con
vention-proceedings-1788-6-18. To be fair, this concern
was not without basis in ratification supporters’
rhetoric. To allay concerns that the Constitution would
create a nationalist executive trampling upon state
sovereignty, James Madison wrote: “Without the
intervention of the state legislatures, the President of
the United States cannot be elected at all. They must in
all cases have a great share in his appointment, and will
perhaps in most cases of themselves determined it.” The
Federalist No. 45, at 287 (Clinton Rossiter ed., 2003). But
it should be no surprise that the Constitution’s
supporters agreed that state legislatures would have
practical influence, even if not legal control, over
electors’ votes. The fundamental (and prescient)
assumption driving most debate about the
Constitution’s institutional architecture was that fallible
human beings would feel beholden to whatever people or
bodies had appointed them, even if—as a legal matter—
the Constitution protected their authority to exercise
that power independently.
Eleven days after Republicus’s critique of the
Electoral College, Alexander Hamilton published
Federalist No. 68, “The Mode of Electing the President.”
Although Hamilton noted the general consensus in
support of the Presidential selection method, he
responded to concerns that the executive would be
selected by electors, not the people directly. Hamilton
argued that the Electoral College’s virtue was its
independence from both the “tumult and disorder” of
direct elections and the “cabal, intrigue, and corruption”
that could arise if the President were selected by pre-

13
existing bodies such as state legislatures or Congress,
where the members had their own, separate political
designs. Id. at 411-12. Instead, the Constitution required
that “complicated … investigation” of who would be best
to serve as President be “made by men most capable of
analyzing the qualities adapted to the station and acting
under circumstances favorable to deliberation, and to a
judicious combination of all the reasons and inducements
which were proper to govern their choice.” Id. at 410
(emphasis added). It was the purposely “detached
situation” of the electors, selected for the “single
purpose of making the important choice” of federal
executive, that would enable them to “vote for some fit
person as President.” Id. at 411-12.
Hamilton also addressed concerns that voters
themselves should select the President. Despite the
electors’ independent responsibility for choosing the
President, he wrote, the “sense of the people” would
“operate in the choice” because the electors would be
“chosen by the people for this special purpose.” Id. at
410. This created a more direct connection between the
people and the executive as an independent branch,
ameliorating concerns from Wilson and others that
Congress could dominate the President. But this
connection was also mediated by the electors’
independent judgment, and their “right of making” the
final selection. Id.
As Wilson explained to the Pennsylvania convention,
although “the Convention [delegates] were perplexed
with no part of this [Constitution’s] plan so much as with
the mode of choosing the President of the United
States,” and although he preferred direct election, “it

14
was the opinion of a great majority in Convention that
the thing was impracticable.” 3 The Debates,
Resolutions, and Other Proceedings in Convention 29798 (Jonathan Elliott ed., 1830). But appointment by
legislative bodies was also unacceptable: “To have the
executive officers dependent upon the legislative, would
certainly be a violation of that principle, so necessary to
preserve the freedom of republics, that the legislative
and executive powers should be separate and
independent.” Id. at 298. “To avoid the[se] in
conveniences already enumerated, and many others that
might be suggested, the mode before us [of the Electoral
College] was adopted. By it we avoid corruption, and we
are little exposed to the lesser evils of party and
intrigue…. I flatter myself that the experiment will be a
happy one for our country.” Id.
Thus, according to ratification’s leading proponents,
who had themselves crafted the Constitution’s
compromises, it was electors’ independent deliberation
and decision-making authority that lessened the dangers
of chaos (at one extreme) and cabal (at the other). The
electors’ independence from both the people and
legislative bodies was, therefore, well understood by the
supporters and opponents of ratification as fundamental
to the Constitution’s design and necessary for the
compromises from which it emerged.
II.

ELECTORS EXHIBITED AUTONOMY IN
THE EARLY REPUBLIC

Early practice confirms that electors in fact
exercised the autonomy the Framers contemplated. In
the four presidential elections between 1789 and 1800,
the early Republic’s autonomous electors can be

15
categorized into three types: (1) originalist electors, who
voted without party pressure as the Framers
envisioned, (2) vote-scatterers, who split tickets to
protect their parties’ Presidential candidates, and
(3) faithless electors, who voted against the interest of
the party they pledged to support.
A. Originalist Electors Voted Without Party
Pressure
The elections of 1789 and 1792 provided the first test
of the Framers’ vision. Parties began to form even by
Washington’s reelection, concentrating the VicePresidential contest around preferred choices. Yet many
electors exercised the independence that the Framers
envisioned.
In the election of 1789, every elector gave one of his
two votes to George Washington. Yet, with no party
pressure or loyalty, electors divided on the second vote.
Tadhisa Kuroda, The Origins of the Twelfth
Amendment: The Electoral College in the Early
Republic, 1787-1804, at 28-38 (1994). Many Federalist
electors chose someone other than leading VicePresidential contender John Adams, and AntiFederalists across the country each chose their favorite
candidate. Id. Out of 69 possible votes, Adams received
only 34, with ten candidates splitting the remainder. Id.
at 38.
By 1792, nascent political factions had already agreed
upon unified electoral strategies. The Federalists
supported the incumbents, Washington and Adams,
while Anti-Federalists settled on Washington for
President and George Clinton for Vice President. Id. at

16
59. Although Anti-Federalist electors generally stuck to
the party plan and voted for Washington and Clinton, id.
at 59-61, a number rejected this proto-ticket. Some
electors thus voted for their preferred Anti-Federalist
candidates: four for Thomas Jefferson and one for Aaron
Burr. Id. at 60, 176.
Thus, despite nascent political parties seeking to
control the Electoral College in these early contests, the
electors adhered to the Framers’ vision that they would
exercise independent judgment.
B. Autonomous
Electors
Scattered
VicePresidential Votes to Help Their Presidential
Nominees
Under Article II’s original design, a party’s
candidates for President and Vice President could tie if
all electors voted party-line. Or a candidate for Vice
President could become President with the vote of a
single elector from the other party. While the Framers
believed these problems would not come to pass because
Electors would cast one vote for their state’s “native
son,” this prediction proved incorrect when national
tickets emerged. Edward B. Foley, Presidential
Elections and Majority Rule 12 (2020). Parties thus had
to encourage small numbers of electors to deviate from
the party line, to avoid a tie between the candidates
meant for President and Vice President.
Such efforts began in the nation’s first election. Some
Federalists became concerned that, if each Federalist
elector voted for his top two choices—assumed to be
Washington and Adams—there would be a tie with “no
way of formally signaling the huge difference between

17
the two.” Akhil Amar, America’s Constitution: A
Biography 337 (2005). Alexander Hamilton had further
concerns: “Every body is aware of that defect in the
constitution which renders it possible that the man
intended for Vice President may in fact turn up
President.” Alexander Hamilton: Writings 514 (Joanne
B. Freeman, ed. 2001). He therefore suggested
Federalists “throw away a few votes say 7 or 8; giving
these to persons not otherwise thought of.” Id.
Washington won unanimously, but electors scattered
more second votes than Hamilton anticipated. For
example, Maryland “Elector Robert Smith complained
that inadequate communication frustrated concerted
action with electors in other states.” To ensure
Washington’s election, Maryland’s electors cast their
second votes for state Supreme Court Chief Justice
Robert Harrison. Kuroda 34. And no such efforts were
required in 1792, as both factions supported Washington.
The first post-Washington election was a different
matter. The original Electoral College system presented
the developing parties with “several interrelated risks.”
Amar 338; see Robert M. Alexander, Representation
and the Electoral College 57 (2019). First, electors who
pledged to support the ticket could instead attempt to
invert it by voting for their party’s Vice-Presidential
candidate but not its Presidential candidate. Amar 338.
Second, the double-ballot system “risked cross-party
inversion.” Id. If one party realized it would receive a
minority of electoral votes, it could strategically direct
some of its votes to the other party’s Vice-Presidential
candidate and elect that person as President. Id. The

18
only response would be for the majority party to further
scatter its second votes.
But this could lead to a third risk: by over-scattering
its Vice-Presidential vote, the majority party could
allow the minority party’s Presidential candidate to slip
into second place and claim the Vice Presidency. Id. This
is in fact what occurred in 1796. Northern Federalists all
cast their first votes for Adams, their party’s
Presidential candidate; they gave most of their second
votes to their Vice-Presidential candidate, Thomas
Pinckney, but scattered the rest. Kuroda 66, 70.
Republicans, meanwhile, had settled on Jefferson and
Burr as their ticket but “made little attempt actually to
coordinate their voting for [Burr as] Vice President.”
Edward J. Larson, A Magnificent Catastrophe: The
Tumultuous Election of 1800, America’s First
Presidential Campaign 114 (2007). Republicans likewise
scattered their second votes to ensure Jefferson rather
than Burr maintained primacy. Kuroda 70. Indeed,
South Carolina’s electors voted for Jefferson and
Federalist Vice-Presidential candidate (and favorite
son) Pinckney. Id. at 88. When the dust settled,
Federalist electors proved to have over-scattered their
votes away from Pinckney, and Jefferson came in second
place. Id. at 177.
This widespread vote scattering—including by those
who participated in the Constitution’s drafting and
ratification—was possible only because Article II
guaranteed electors the independence to vote as they
saw fit.

19
C. Faithless Electors Emerged by 1796
Early elections also saw the rise of a third form of
autonomous elector: faithless electors, who voted
against their party’s interest. These electors exercised
genuinely independent judgment, acting contrary to
party loyalty.
“[I]n the early elections,” in which “candidates for
electors” were “contemporaries of the Founders,”
“electors were expected to support the party nominees,”
even if they could not be bound. Ray v. Blair, 343 U.S.
214, 228 (1952). “[P]arties which lost referred to electors
as puppets whose strings were pulled by party
organizations,” yet they “praised such behavior by
electors as fair and faithful” when they won. Kuroda 107;
see id. at 99.
Despite hoping that electors would stick to the party
line, both parties knew electors could defect. The 1796
election featured the first “faithless” electors. Samuel
Miles, one of Pennsylvania’s two Federalist electors, had
pledged “to give [his] suffrages in favor of men who will
probably continue the same system of wise and patriotic
policy” as the Washington administration. Jeffrey L.
Pasley, The First Presidential Contest: 1796 and the
Founding of American Democracy 360, 363 (2016).
There was no doubt that this meant voting for Adams
and Pinckney. Id. at 360. Yet immense pressure arose to
follow Pennsylvania’s Democratic-Republican majority
vote—particularly since the Federalist electors
squeaked in only because some votes did not reach
Philadelphia in time to be counted. Id. at 362-63. Miles
succumbed and voted for Jefferson instead of Adams.
Id.; see Kuroda 177.

20
Two more such votes would have deprived Adams of
an electoral majority and thrown the election to the
House. Had those two votes gone to Jefferson, he would
have received 70 votes and the Presidency. Another
Federalist rebuked Miles in the United States Gazette:
“What, do I chuse Samuel Miles to determine for me
whether John Adams or Thomas Jefferson shall be
President? No! I chuse him to act, not to think.” Peirce
& Longley 36. But whatever this disappointed
Federalist believed he had chosen Samuel Miles to do,
the Constitution’s design protected Miles’ right to
exercise independent judgment.
It also appears that a Maryland Federalist elector
broke ranks in 1796, voting for both Adams and
Jefferson. Kuroda 71; Pasley 395. Records indicate that
seven of Maryland’s ten electors pledged themselves to
the Adams ticket, and three to the Jefferson ticket. Tufts
Univ., 1796 President of the United States, Electoral
College n.4, A New Nation Votes: American Election
Returns 1787-1825 (2012), http://elections.lib.tufts.edu/
catalog/tufts:us.potus.1796. But returns showed four
votes for Jefferson, not three. Kuroda 177. Electors’
second votes were otherwise accounted for: four
Federalists voted for Pinckney while two scattered their
votes to Maryland’s governor; the three Republicans
voted for Burr. Id.; Tufts Univ. As in Pennsylvania,
then, in Maryland one Federalist elector voted for the
Republican candidate.
Electors thus were “not … bindable by the people,”
and they “were hardly guaranteed to be mere organs” of
the people’s—or the parties’—will. Pasley 313. By the
late 1790s, “[m]any electors still voted their consciences

21
or sectional loyalties.” Larson 115. Hence, when
Congress weighed the Twelfth Amendment, it had
before it not just the possibility of faithless electors, but
the reality.
III.

THE TWELFTH AMENDMENT DID NOT
AFFECT ELECTORS’ AUTONOMY

The original Electoral College design provided for,
and Founding-era elections demonstrated, electors’
right to exercise independent judgment. All of this was
familiar to those who crafted the Twelfth Amendment—
who did nothing to alter this autonomy. Nor did
Congress in the Twelfth Amendment add any language
permitting states to control how electors performed
their federal duties. The Twelfth Amendment’s authors
felt no need to change the original Constitution on this
point, since—in practice—adequate party loyalty had
already developed: Electors already pledged themselves
to party tickets, and states chose electors with party
loyalty in mind. The Twelfth Amendment’s changes
therefore did not address electors’ autonomy.
A. Vote-Scattering Failure and the Prospect of
Minority
Rule
Spurred
the
Twelfth
Amendment
In the highly partisan election of 1800, the original
Constitution’s two-vote system—which contemplated
consensus candidates and native sons—“badly
malfunctioned.” Foley 29. Congressional Republicans
passed the Twelfth Amendment to avoid repeating these
events, in which a tie between the Republican
candidates almost left the country without a President
and even risked military conflict. Congress also sought

22
to mitigate the risk that one party could interfere with
the other’s ticket by strategically boosting that party’s
Vice-Presidential candidate. Id.
In 1800, the Federalist candidates were Adams for
President and Charles Pinckney for Vice President.
Federalist electors voted in near lockstep, with one
casting his second vote for John Jay instead of Pinckney
to avoid a tie. Kuroda 95, 97. Republicans, meanwhile,
supported Jefferson for President and Burr for Vice
President. Several states considered dropping one or
two Burr votes, and Republican leaders encouraged
such behavior. Id. at 99; Larson 118-19. But no leader
ever secured commitments to spoil a vote. Kuroda 99;
Larson 242. And no elector did. Hence, Jefferson and
Burr each received 73 votes, to Adams’s 65 and
Pinckney’s 64. Kuroda 178. Tied, the vote proceeded to
the lame-duck House, which deadlocked: eight
delegations had Republican majorities, six had
Federalist majorities, and two had no majority—with
nine majorities required to elect a President. Larson
243-44.
Republicans like Jefferson hypothesized that
Federalists might draw out the balloting until March 3,
when Adams’s term would expire, then attempt to
install a Federalist successor. Id. at 245, 259-60. Or Burr
could collude with Federalists and a few Republicans to
reverse the ticket and become President. Id. at 246.
Some Federalist congressmen did, indeed, pursue the
latter course. Id. at 262-66. But in the end, on the thirtysixth ballot, enough Federalists abstained to throw the
election to Jefferson. Id. at 267-68.

23
B. The
Twelfth
Amendment
Congress
Recognized Elector Autonomy But Sought
Only Ballot Designation
After the 1800 election, the need for reform was
clear, but the path was not. Amending the Electoral
College implicated the same controversies that nearly
drove the 1787 Convention to impasse. For instance,
then-President Jefferson thought that the problem was
independent electors themselves and floated a version of
the direct-election option rejected at the Convention.
Letter from Thomas Jefferson to Albert Gallatin (Sept.
18, 1801), https://founders.archives.gov/documents/Jeff
erson/01-35-02-0245. But no such proposal made it to
Congress, perhaps due to the same suspicion of direct
elections that yielded the Electoral College to begin
with.
The Republican Congress’s “immediate aim [in
passing the Twelfth Amendment] was securing the
smooth re-election of Jefferson.” Foley 29. Republicans
believed Jefferson had the popular will on his side and
sought to avoid a repeat of 1800. These Republicans
envisioned that, under a reformed Article II, the
majority of voters would choose the electors in each
state, and only a candidate who won a majority of those
state-level majorities would become President. Id.
But they also knew that under the existing system,
the electors of a “losing” party could still elect their
preferred Vice President, or even throw their electoral
votes to the majority’s pick for Vice President and make
him President. With just a narrow majority in Congress
and the need to ratify any amendment before the 1804
election, Congressional Republicans focused not on

24
limiting electors’ independence but on ensuring the
separate designation of Presidential and VicePresidential electoral votes.
i.

The House Debate

A principal argument for the Twelfth Amendment in
the House was that the existing system allowed the
minority party’s electors to flip the majority party’s
ticket. Yet instead of restricting electors’ independent
authority, the House chose only to bifurcate electors’
choices into Presidential and Vice-Presidential votes.
A resolution requiring such designation was
introduced on October 17, 1803. 13 Annals of Cong. 372
(1803). Debate focused on the procedure if no candidate
received a majority of electors—namely, an election in
the House with each state delegation receiving one vote.
Id. at 374-77. The designation proposal was then sent to
a select committee, along with another proposal
mandating electors be chosen by district. Id. at 380-81.
Only the designation amendment made it back to the
floor. Id. at 383, 420.
Subsequent debate made clear that the amendment’s
authors knew well that, under the original Article II,
electors were free to vote for candidates other than
those to whom they were pledged. With this in mind,
Congressmen repeatedly raised the specter of an
electoral vote splintered among more than the four
party nominees. Id. at 376-77 (statement of Rep.
Clopton); id. at 427 (statement of Rep. Dawson); id. at
428-29 (statement of Rep. Elliot); id. at 431 (statement
of Rep. Alston). Republicans therefore sought to lower
the number of candidates eligible for House selection, to

25
prevent the House from choosing a candidate supported
by only a small number of electors.
When the debate moved to the merits of designating
votes for President and Vice President separately,
supporters clarified that “the great object of the
amendment ought to be to prevent persons voted for as
Vice President from becoming President.” Id. at 428
(statement of Rep. Sanford). Representative John
Clopton of Virginia gave the leading speech in favor of
designation. Foley 34. He unspooled an elaborate
hypothetical to illustrate how the 1787 system could
make the majority’s Vice-Presidential nominee
President. 13 Annals of Cong. 491. Say the majority
supports A over B for President, and scatters some
second votes from its Vice-Presidential candidate C.
Suppose, also, that the minority casts a significant
number of its second votes for C, rather than for its own
Vice-Presidential candidate D. Id.2 In this scenario, C,
whom the majority did not prefer, would become
President. 13 Annals of Cong. 491. Thus, “‘the will of the
majority is defeated’ by the ‘anomalous effect’ of the
original Electoral College’s faulty mechanics.” Foley 36
(quoting 13 Annals of Cong. 491).
The Federalist minority opposed designation for
precisely the same reason Clopton and other
Republicans supported it: they wanted the option to vote
for the majority’s Vice-Presidential candidate and
2

Republicans were concerned that Federalist electors might vault
Jefferson’s running mate over Jefferson himself in 1804, just as Burr
might have leapfrogged Jefferson in 1800 with one more vote. See
Joshua D. Hawley, The Transformative Twelfth Amendment, 55
Wm. & Mary L. Rev. 1501, 1545 (2014).

26
secure a President indebted to the minority for his office.
13 Annals of Cong. 528-29 (statement of Rep. Huger); id.
at 535-36 (statement of Rep. Hastings). Thus, while the
parties took different sides on this issue, they agreed
that it was a driving concern behind the amendment.
Limiting electors’ autonomy to cast their ballots
pursuant to their own free will was not on the agenda.
ii.

The Senate Debate

The Senate took up its own measure. Senators were
also concerned about electors voting for another party’s
candidate. But like the House, the Republicans in the
Senate sought a focused, fast resolution. The Senate did
nothing to prevent faithless electors, or to allow the
states to prevent them.
The Federalist minority also understood the
Republican desire for reform before 1804, and sought to
slow things down. At the outset of debate, one senator
immediately moved to eliminate the position of Vice
President. Id. at 21. Republicans’ opposition illustrated
their focus on speed and their concerns about keeping
their coalition together. Id. at 22-25. As one senator put
it, “his mind was made up to vote for nothing but the
discriminating principle”; “he would not go into
consideration of any other amendments” because he
“wished this to go into operation before the next
election.” Id. at 23 (statement of Sen. Breckenridge).
Despite the hurry, the Senate became bogged down
in other matters, such as approving the Louisiana
Purchase, throughout late October and November of
1803. Hawley 1543. When discussion resumed, it focused
on whether, if no candidate received a majority of

27
electors, the House should choose from the top three
candidates or the top five. 13 Annals of Cong. 87-90, 97103, 108-24. Republican senators argued for the smaller
number because electors might vote for more than the
four candidates on the parties’ tickets. See id. at 101
(statement of Sen. Jackson); id. at 103 (statement of Sen.
Nicholas); id. at 114 (statement of Sen. Jackson); id. at
120, 122 (statement of Sen. S. Smith). One senator
referenced the single electoral vote John Jay received in
1800, pointing out that letting the House choose between
five candidates would “place him, who had only one vote,
on the same footing with him who had seventy-three”
should a future election devolve upon the House. Id. at
101 (statement of Sen. Jackson). The Republican
majority successfully reduced, from five to three, the
number of candidates subject to the House backup
procedure. Id. at 124.
As to designation, the Senate debate also revealed
the shared understanding that, under Article II,
electors’ votes could not be bound. Several Republican
senators wanted to prevent the Federalists, whom they
assumed would remain a minority, from electing a
Federalist as Vice President if the Republican electors
scattered their second votes. Id. at 123 (statement of
Sen. Smith); id. at 152 (statement of Sen. Cocke); id. at
182, 186 (statement of Sen. Taylor); id. at 205 (statement
of Sen. S. Smith). Others, including John Quincy Adams,
echoed Congressman Clopton’s concern that electors
could install someone other than the majority’s
preferred candidate as President—something that
would have been impossible if states could bind their
electors. Id. at 131 (statement of Sen. Adams); id. at 182
(statement of Sen. Taylor); id. at 206-07 (statement of

28
Sen.
Breckenridge).
Federalists
opposed
the
amendment for precisely the same reasons as their
House colleagues. Id. at 159, 162-64, 170 (statement of
Sen. Tracy); id. at 190 (statement of Sen. Hillhouse).
Although Republicans ultimately triumphed, it was
close: the Twelfth Amendment passed by a vote of 22-10,
a two-thirds majority with nothing to spare. Id. at 209.
The Republicans had to navigate between the Scylla of
Federalist obstructionism and the Charybdis of
moderate Republican fence-sitting. Kuroda 138.
“Because the final two-thirds vote would be close and
there were a few Republicans . . . who might desert,
proponents had to be alert to attendance of all their
members and keep tabs on the vote count.” Id. The
Twelfth Amendment’s reforms were, of necessity,
confined to Congress’s highest priorities.
The Senate’s amendment thus mimicked the
House’s, but with two changes. First, it limited the
House backup plan to just three candidates. Second, it
added contingency plans to avoid having no elected
President (as almost occurred in 1801) by providing that
the Vice President would become President if the
electors or the House did not choose a new President by
Inauguration Day. Id. at 136-37. But like the House, the
Senate made only one reform to the Electoral College
itself: vote designation.
iii.

Debate Returns to the House

Because Republican senators had already left
Washington when the Senate’s version arrived at the
House, House Republicans had to swallow the changes.
Kuroda 145. Somehow, they had to cobble together a

29
two-thirds majority from a set of Republicans (and a few
Federalists) who sought a clean designation amendment
and a set of Federalists who would accept designation
only if paired with an ill-fated proposal to choose electors
by district. Id. at 145-46.
After losing some congressmen who supported
designation alone, and anxious to give states enough
time to ratify before the 1804 election, Republicans
rushed debate forward so that a vote could be taken on
December 8, 1803. 13 Annals of Cong. 686-90. Each side
had time only to reiterate the points for and against the
amendment. Id. at 702-76.
The primary Republican speaker argued that
designation would help achieve majority rule. Foley 43.
And he repeated an argument similar to Congressman
Clopton’s: that reform was needed so that the minority
could not flip the majority’s ticket. 13 Annals of Cong.
720. Such a vote would be purely strategic. The
majority’s Vice Presidential candidate would not even
be “in most cases agreeabl[e] to the minority, but”
merely “preferred by them” to the majority’s
Presidential candidate as “most likely to favor the
measures of the minority.” Id. (statement of G.W.
Campbell). Such a ticket-flip, however, depended on “[a]
difference of opinion among the majority, with regard to
the person who shall be Vice President, or a greater
unanimity in their choice of a person as Vice President,
than in that of President.” Id. at 721. Again, this scenario
would only be possible on the understanding that Article
II empowered electors to vote unbound—by state,
party, or otherwise.

30
Other statements during the House’s debate
recognized that electors could vote contrary to their
party’s or state legislature’s wishes. One Federalist
opponent raised the prospect of elector corruption under
the amendment: “One office may be promised to this
Elector as the price of his vote, whilst other offices are
promised to other Electors on the same corrupt
consideration, and the aspiring candidate may thus
mount to the first office in the Government.” Id. at 750
(statement of Rep. R. Griswold). The 1787 Electoral
College reduced the utility of such promises, because no
candidate could be sure that he would come in first and
receive a majority of electoral votes. Id. By designating
their votes, electors would raise the majority-party
nominee’s chance of success, increasing the “means of
corruption.” Id.
No one responded with any suggestion that electors
could be bound to vote with the popular majority,
whether by their party pledges or their state’s
legislature. Instead, they insisted the “great danger of
intrigue” lay in the existing Electoral College
mechanism. Id. at 759 (statement of Rep. Jackson).
Under the double-ballot system, even if states agreed to
support one Presidential candidate, a Vice-Presidential
candidate could collude with electors to break the states’
agreement and make the Vice-Presidential candidate
President. Id.
The House eventually passed the Senate’s version of
the Twelfth Amendment with no votes to spare: the
Speaker stepped down from the dais to cast the vote that
clinched the two-thirds majority, 84-42. Id. at 775-76.
Enough states ratified the amendment for it to take

31
effect the next summer, “just in time for the presidential
election of 1804.” Amar 341.
C. The Twelfth Amendment’s Text Does Not
Authorize
Interference
with
Elector
Autonomy
These debates yielded constitutional text that left
electors’ independence untouched. Such independence
was, as detailed above, a shared assumption of the
Twelfth Amendment’s framers—who, for example,
often raised the possibility that electors could stray from
the party line due to intrigue, corruption, or preference.
They particularly feared that the minority party’s
electors could raise the majority party’s choice for Vice
President above its choice for President. Yet Congress
added no language that would prevent electors from
acting faithlessly or that would allow states to prohibit
the practice. True, the Twelfth Amendment’s authors—
etching their expectation of two-party competition into
the Constitution—removed much of electors’ incentive
to exercise independent judgment when casting their
ballots. But they did not remove electors’ capacity to
vote autonomously.
The Twelfth Amendment “direct[ed] electors to
designate their ballots for President and Vice-President
and … reduc[ed] Congress’s role in presidential elections
in favor of greater and more direct control by the
people.” Hawley 1542. It made no change to, and did not
expand the scope of, states’ power to appoint electors.
Its only alteration to the Electoral College concerned
how electors’ votes were cast and tallied: as separate
choices for separate offices, rather than two
undifferentiated Presidential votes. It provided that

32
“[t]he Electors shall meet in their respective states and
vote by ballot for President and Vice-President,” and
that “they shall name in their ballots the person voted
for as President, and in distinct ballots the person voted
for as Vice-President.” U.S. Const. amend. XII.3
The Twelfth Amendment’s targeted scope reflects
Congress’s razor-thin vote margins and desire for rapid
passage and ratification. Republicans could not summon
a two-thirds majority for anything beyond designating
electors’ votes, conforming the congressional backup to
this designation principle, and providing a contingency if
that backup failed. Thus, “the terms of that Amendment
address only ‘the specific provisions of the Constitution
that had raised concerns during the ratification
debates’” and that external constraints—on both votes
and time—let supporters address. Franchise Tax Bd. of

3

States’ power to rescind electors’ appointments over the votes
they cast implicates another Electoral College feature, which the
Twelfth Amendment also left unaltered. Article II requires that all
electors vote on the “same” day. This provision strongly implies (if
not necessitates) that, once duly appointed electors cast their
ballots on that uniform day, their appointment cannot be undone
because of objections to their choices. Instead, the remedy for any
such objection lies solely in the special joint session of Congress
convened, pursuant to the Twelfth Amendment, to receive the
states’ electoral votes. Indeed, Justice Joseph Bradley resolved the
disputed election of 1876 in favor of Rutherford Hayes based on this
precise understanding of the finality of the electors’ role. Edward
B. Foley, Ballot Battles 133-35 (2016).

33
California v. Hyatt, 139 S. Ct. 1485, 1496 (2019) (citation
omitted).4
CONCLUSION
Electors’ independence did not arise, or endure, by
chance. It was critical to the compromise that secured
the Constitution’s passage, and it was well-known to
those who crafted the Twelfth Amendment. At the
Founding, the Framers carefully considered arguments
that electors should not be deliberative, and they
carefully calibrated electors’ independence from the
states (on one hand) and the people (on the other). The
Twelfth Amendment debates recognized, and did not
disturb, this independence.
MARCH 9, 2020

Respectfully submitted,
JESSICA RING AMUNSON
Counsel of Record
ZACHARY C. SCHAUF
NOAH B. BOKAT-LINDELL
ADRIENNE LEE BENSON
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6023
jamunson@jenner.com

4

The same is true of the other amendments affecting Presidential
selection, the Twenty-Second and Twenty-Third Amendments.
Both were adopted after electors’ loyalty to parties had become
routine practice, but neither enacted language affecting Electoral
College procedures or electors’ autonomy.

